Attorneys for Petitioners
Nicholas Jacob Bronni
Counsel of Record

Solicitor General of Arkansas
Arkansas Attorney General's Office
323 Center St., Suite 200
Little Rock, AR 72201

501-682-6302

nicholas.bronni@arkansasag.gov
Party name: State of Arkansas
Elizabeth B. Prelogar
Counsel of Record

Acting Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001

202-514-2217

SupremeCtBriefs@USDOJ.gov
Party name: Norris Cochran, Acting Secretary of Health and Human Services, et al.
Attorneys for Respondents
Ian Heath Gershengorn
Counsel of Record

Jenner & Block
1099 New York Ave., NW
Suite 900
Washington, DC 20001

202-639-6869

IGershengorn@jenner.com
Party name: Charles Gresham, et al.
Laura E. B. Lombardi
Counsel of Record

New Hampshire Department of Justice
33 Capitol Street
Concord, NH 03301-6397
laura.lombardi@doj.nh.gov

Party name: New Hampshire Department of Health and Human Services

603-271-3650

